<html>
<title> - STRATEGIC COMMUNICATIONS AND COUNTERING IDEOLOGICAL SUPPORT FOR TERRORISM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-101]

                      STRATEGIC COMMUNICATIONS AND

                     COUNTERING IDEOLOGICAL SUPPORT

                             FOR TERRORISM

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 15, 2007

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
44-488                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001










    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                JOHN KLINE, Minnesota
JIM MARSHALL, Georgia                THELMA DRAKE, Virginia
MARK UDALL, Colorado                 K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              JIM SAXTON, New Jersey
KIRSTEN GILLIBRAND, New York         BILL SHUSTER, Pennsylvania
KATHY CASTOR, Florida
                 Kevin Gates, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, November 15, 2007, Strategic Communications and 
  Countering Ideological Support for Terrorism...................     1

Appendix:

Thursday, November 15, 2007......................................    27
                              ----------                              

                      THURSDAY, NOVEMBER 15, 2007
    STRATEGIC COMMUNICATIONS AND COUNTERING IDEOLOGICAL SUPPORT FOR 
                               TERRORISM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     3

                               WITNESSES

Doran, Dr. Michael, Deputy Assistant Secretary of Defense 
  (Support for Public Diplomacy), Department of Defense..........     9
MacInnes, Duncan, Principal Deputy Coordinator of the Bureau of 
  International Information Programs, U.S. Department of State...     4
Pittman, Capt. Hal, USN, Acting Deputy Assistant Secretary of 
  Defense (Joint Communication), Department of Defense...........     7

                                APPENDIX

Prepared Statements:

    Doran, Dr. Michael...........................................    52
    MacInnes, Duncan.............................................    32
    Pittman, Capt. Hal...........................................    39
    Smith, Hon. Adam.............................................    31

Documents Submitted for the Record:
    How to Win The War Of Ideas, by Robert Satloff of The 
      Washington Institute for Near East Policy..................    65

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
 
    STRATEGIC COMMUNICATIONS AND COUNTERING IDEOLOGICAL SUPPORT FOR 
                               TERRORISM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                       Washington, DC, Thursday, November 15, 2007.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Good morning. We will go ahead and get the 
hearing started as close to on time as possible. I look forward 
to hearing from our witnesses.
    We are gathered today to talk about strategic 
communications in the global war on terror, which is a 
critically important part of that effort and one that I think 
we need to place greater emphasis on, greater focus and, 
ultimately, greater resources as well.
    When you look at the battle that we are fighting against al 
Qaeda and similar ideologies, it is a broad-based ideological 
battle. And I think that the closest analogy you can draw is to 
the Cold War and communism. And there were many, many aspects 
to the Cold War, certainly. Sometimes the Cold War involved 
military confrontations, in Korea and Vietnam and elsewhere. 
But it also overlaid the larger issue; it was communism versus 
capitalist democracy.
    And we went out and made the case that our system, our 
ideology was better. And we made that case comprehensively. 
And, ultimately, that had as much to do with our success as 
anything. As I have facetiously said that, you know, the war on 
communism can best be summed up as we took people from the 
Soviet Union, said, you know, ``Look at your grocery store, 
look at our grocery store, we win,'' which is a bit of an 
exaggeration, but that was certainly part of it.
    And, more importantly, we had a comprehensive strategic 
plan for how to do that and many other messages about what was 
better about our ideology and what was deficient about the 
ideology of communism. And slowly but surely, the rest of the 
world, even in the Communist world, agreed. They came across to 
our way of thinking ideologically. We basically won a marketing 
campaign. And that had as much to do with our success as 
anything.
    Now we face a similar struggle, an ideological struggle 
against Osama bin Laden, al Qaeda and a very dangerous ideology 
that they are spreading. And it is my judgment, at this point, 
that we are not doing as well in that battle as we should be. 
We clearly have the better ideology. We clearly have more to 
offer people of all faiths, from all places in the world, with 
freedom, openness, democracy, opportunity, than what Osama bin 
Laden has been offering.
    When the Taliban ran Afghanistan, it was a complete 
disaster, by everybody's estimation. That is what they have on 
the table. And yet we haven't been able to sort of get up on 
the other side of that and begin to win that argument, 
certainly in the Muslim world. You know, you look at various 
polls and various indicators out there. It is clear that the 
Muslim world still has way too much sympathy for Osama bin 
Laden and al Qaeda and not enough understanding and 
appreciation for the West.
    But it goes beyond the Muslim world, even in Europe. I was 
in Afghanistan last spring, meeting and talking with various 
folks about our efforts over there. And while the leaders of 
some of the key European countries have bought into what we are 
doing in Afghanistan, a lot of their citizens have not, and 
that makes it extraordinarily difficult for our commanders over 
there.
    I will always remember General McNeil talking about the 
various countries that were involved and then the list of what 
they would and would not do militarily. Any military commander, 
I think, would shudder at the notion of a bunch of troops under 
his command that are choosing what they will and will not do. A 
lot of that has to do with the difference of opinion about 
going about conducting the broader battle. We have got to start 
winning the battle for ideas, and we have got to do a better 
job of promoting that.
    And I will say there are many issues--and I look forward to 
hearing from our witnesses today about how we can better 
coordinate that and what we need to do--but the two that strike 
me and the two I am most interested in: One is interagency 
cooperation. There are many, many people who touch this issue, 
on all levels. Certainly the State Department is the lead 
agency. The Defense Department has a lot to do with it. But all 
across various segments of our Government, right down to the 
captain in Baghdad trying to persuade, you know, a local tribe 
to be on our side in the battle against al Qaeda in figuring 
out how to do this, there are many, many different layers. Are 
we maximizing those resources? Are we getting the most out of 
the various pieces that are involved in this and coordinating 
them in a comprehensive way that makes sure that we are getting 
the most out of what we have?
    But second is the matter of resources, and we are not 
spending very much money on this strategic communications 
effort. When you look at what we were spending at the height of 
the Cold War versus what we are spending now, it is a joke. We 
haven't even really, significantly increased our efforts at the 
State Department in public diplomacy, in strategic 
communications, since 9/11. It is pretty close to a flat line.
    And I think the world of what our military has done since 
9/11. I think the way they have pulled together, coordinated, 
maximized their resources is a real testimony to how great a 
military we have.
    On the other hand, when you look at that, you can look at 
the Department of Defense (DOD) budget from 9/11 forward and 
see it going like this, and you can look at the State 
Department public diplomacy budget and see it going like this, 
and hopefully have a little sympathy for the folks who are 
trying to do the strategic communications/public diplomacy 
piece. We need to invest more resources in it if we are going 
to get the results that we desperately need in this battle.
    So I look forward to the testimony. And, with that, I want 
to turn it over to the ranking member on the committee, Mr. 
Thornberry, for any opening remarks he has.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 31.]

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman. I appreciate your 
opening comments, and I agree with them.
    I would ask unanimous consent that an editorial from The 
Washington Post from last Saturday by Robert Satloff of The 
Washington Institute for Near East Policy be made part of the 
record.
    Mr. Smith. Hearing no objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Thornberry. I think this is only the most recent 
article, with a big stack of studies and articles, that 
expresses the view that we are not adequately fighting this war 
of ideas, in part because it is a hard, unnatural thing for our 
government to do. And I sympathize with each of you in the 
position that you are in. But I also think it is important for 
this subcommittee to focus on those issues and try to encourage 
us to be more successful.
    The point of this article is that we operate as if this war 
of ideas barely exists and have focused our energies on the 
wrong problem, trying to gain popularity rather than trying to 
help the struggle within the Muslim faith itself. And it goes 
on to point out some suggestions on how and the way we can do 
that better.
    As you know, Mr. Chairman, I have been interested in this 
for some time. I have dug out the Defense Science Board Task 
Force report from September 2004, part of which I have 
introduced as an independent bill to try to gain the expertise 
of the private sector on behalf of this effort. But I am 
concerned that we are moving too slowly in really waging this 
struggle and that this struggle is an absolutely essential part 
of our national security at this point in time.
    So I appreciate this hearing. I appreciate the opportunity 
to hear from these witnesses and the increased attention that 
this part of national security is achieving.
    I yield back.
    Mr. Smith. Thank you, Mac.
    And before I introduce the witnesses, just one more quick 
comment. As you are making your comments, basically we are 
trying to win a campaign here, a campaign of ideas. And to do 
that, you have to develop a message and deliver that message in 
the mediums where your audience is going to get their 
information. So as I hear your testimony, I am curious to know 
what is our message, how are we delivering it, what do we think 
are the critical mediums to reach those populations that we are 
trying to reach?
    And with that, I will turn it over to our witnesses. I will 
introduce all three of them.
    And we will start with Mr. Duncan MacInnes, who is the 
Principal Deputy Coordinator of the Bureau of International 
Information Programs at the Department State. The Department of 
State is the lead organization on the ideological piece, on the 
strategic communications piece of the global war on terror. And 
the International Information Programs Bureau is the lead piece 
of the Department of State's effort.
    We also have Captain Hal Pittman from the United States 
Navy, who is the Acting Deputy Assistant Secretary of Defense 
for Joint Communication; Dr. Michael Doran, Deputy Assistant 
Secretary of Defense, Support for Public Diplomacy, also with 
the Department of Defense.
    And we will start with Mr. MacInnes.

 STATEMENT OF DUNCAN MACINNES, PRINCIPAL DEPUTY COORDINATOR OF 
    THE BUREAU OF INTERNATIONAL INFORMATION PROGRAMS, U.S. 
                      DEPARTMENT OF STATE

    Mr. MacInnes. Chairman Smith, Congressman Thornberry and 
distinguished members of the Subcommittee on Terrorism, 
Unconventional Threats and Capabilities, thank you for inviting 
me here today. And thank you for those opening statements, 
which summarized some of the issues that we do face today.
    Combatting ideological support for terrorism poses a 
variety of daunting new challenges for U.S. public diplomacy. 
Terrorists have shown themselves to be adept at exploiting the 
freedom of the Internet to spread their propaganda directly to 
young Muslims around the world, using effectively video 
messaging, imaging and text.
    Our traditional communication tools are designed for 
mainstream media and have had little impact in this new 
information battlefield. Our audiences have also been stretched 
beyond the traditional opinion leaders, and it leads to the 
general public and specifically the youth, who are the target 
of extremist propaganda.
    During the Cold War, we fought a traditional enemy in the 
Union of Soviet Socialist Republics (USSR), and our tools 
included traditional public diplomacy tools such as educational 
programs, rule-of-law programs, democracy promotion, 
publications, mainstream media. These strategies remain 
relevant and powerful still today, but we need to continue to 
develop new tactics to counter an elusive and decentralized 
nonstate foe who is adept at exploiting the Internet and new 
technologies in spreading its ideology of violence.
    We have come a long way in coordinating our efforts on 
strategic communications across the interagency. On April 8, 
2006, the President established the interagency Policy 
Coordinating Committee, PCC, on public diplomacy and strategic 
communications. As chairperson of the PCC, Under Secretary 
Karen Hughes leads our international strategic communications 
efforts within the Administration.
    Over the past year, Under Secretary Hughes has reorganized 
the PCC to ensure more active interagency coordination and 
synergies in the struggle with violent extremism. She 
established the interagency Counterterrorism Communication 
Center (CTCC) and created sub-PCCs to work on the issues of 
State-DOD coordination and cooperation and also set up 
additional sub-PCCs on research and analysis and on branding.
    State and DOD now are working closely together on 
coordinating our efforts. Last week, for example, Dr. Doran, 
Captain Pittman and I were together discussing strategic 
communications at the Global Synchronization Conference held by 
SOCOM in Tampa.
    The week before that, we met together at the State-DOD sub-
PCC on coordination and planning. In that sub-PCC, we are 
exploring ways to enhance our cooperation and develop shared 
communication strategies. Already in the works are initiatives 
on coordinating Website activities and content, video 
production, blogging, and a renewed effort to identify and find 
ways to empower credible Muslim voices, to develop shared image 
databanks, and to strengthen the effectiveness of Military 
Information Support Teams (MIST) teams working in our overseas 
missions.
    Overseas in the Middle East, Asia, Africa and Europe, our 
public affairs officers at the embassies work closely with 
military public affairs and Psychological Operations (PSYOPS) 
officers. Military information support teams, MISTs, are 
integrated into the work of an increasing number of U.S. 
missions overseas.
    Let me talk a little bit about the Counterterrorism 
Communication Center which was set up. Under Secretary Hughes 
established the Counterterrorism Communication Center last 
summer to coordinate overall overt U.S. strategic communication 
messaging in the war of ideas and to produce and disseminate 
effective messaging to counter terrorist ideology, especially 
in the Arab-Muslim world but also in Europe and elsewhere.
    The CTCC, as they call it, is a small but truly interagency 
organization, with staff currently drawn from the Department of 
State, the Department of Defense, the National Counterterrorism 
Center (NCTC) and the intelligence community. Working with 
State, DOD and other U.S. agencies, it produces strategic 
communication plans, develops effective narratives and themes 
to undermine and counter terrorist messaging, and produces 
specific messages for use by State and DOD commuters. It 
responds with talking points to breaking-news events and works 
closely with our rapid response unit at the State Department's 
public affairs office to put out a regular antiterrorism 
message.
    CTCC messaging goes to more than 2,000 key U.S. Government 
communicators, including combatant commands and all U.S. 
embassies. Those communicators build on the themes and 
information in those messages, customizing them for local 
audiences in order to achieve the greatest impact.
    Our efforts focus on undermining and putting extremists on 
the defensive by exposing how terrorists recruit and exploit 
young people; destroy religious sites and mosques; murder 
women, children, men and innocent victims, such as in the 
tragic events last week that resulted in the deaths of 59 
schoolboys, five teachers, police officers and other innocent 
adults in an effort to target members of the Afghan parliament, 
six of whom were murdered.
    We have also set up a digital outreach team. It was 
launched one year ago as a pilot initiative to counter 
ideological support for counterterrorism on the Internet. It 
employs Arabic speakers to post entries into influential Arabic 
blogs, challenging misrepresentations and providing accurate 
information about U.S. policy, our society and our motives 
overseas. Our bloggers speak the language and idiom of the 
region and know the culture references and are often able to 
converse informally and frankly, rather than adopt the more 
formal persona of the U.S. Government's spokesperson.
    This is a major departure from our previous way of 
conducting public diplomacy. It requires both creativity and a 
new set of skills. We are currently in the process of expanding 
the original team of three up to 10, including an Urdu speaker 
and two Persian linguists. We are also exploring how we can use 
other cybertechnologies, such as cell phones, Second Life, in 
our war against the terrorists.
    Our Bureau of International Information Programs is also 
fully engaged in expanding public diplomacy and countering 
terrorist extremist ideologies through the Internet. Our 
English-language Website and six foreign language sites, 
including both Arabic and Persian, are being transformed to use 
more videos, more blogging, podcasts, Web chats, that are 
designed to reach younger audiences. Our Arabic Web site 
attracts more than 200,000 visitors per month, with the top 
users coming from Saudi Arabia, Egypt, the Gulf and Morocco.
    The decline in favorable overseas public opinion toward the 
United States has resulted in an increased skepticism about the 
motives that drive our policies. On the practical side, this 
has led to a distrust that undermines the effectiveness of our 
messages against extremists. We are addressing this issue by 
working with our embassies overseas and with the American 
Muslim community here in the States to reinforce credible 
antiextremist voices.
    For example, we have sent out dozens of American Muslims to 
predominantly Muslim countries to engage in discussions with 
their counterparts. These citizen dialogue programs directly 
counter al Qaeda's negative propaganda message that the U.S. is 
at war with Islam.
    The CTCC collects and disseminates antiterrorist statements 
and editorials and cartoons made by Muslims from around the 
world in order to amplify their voices in the fight against 
extremism. We are in the process of finding new ways to empower 
credible Muslim voices in the Muslim world, because this is a 
key issue we have to work on.
    The strongest messages are sent, however, not through words 
but through deeds, what Karen Hughes calls the diplomacy of 
deeds. She talks about the importance of waging peace by 
showing the United States as a positive force for good in the 
world, in stark contrast with the destructive ideologies 
espoused by al Qaeda and other terrorist groups. Americans are 
generous, committed to helping others, and we have the largest 
number of people working in voluntary organizations. We have 
worked closely with DOD to promote understanding among foreign 
publics of our humanitarian efforts. These cooperative efforts 
have included telling the dramatic story of our emergency 
relief for tsunami and earthquake victims in Indonesia and 
Pakistan.
    Another initiative of Karen Hughes' is the pilot country 
program, which provides funding for special projects in key 
countries with predominantly Muslim or sizeable Muslim 
populations. Funded through the 2007 emergency supplemental for 
the war of ideas, the pilot country project seeks to find ways 
to counter ideological support for terrorism through innovative 
projects that are identified by the Ambassador and senior 
Embassy staff members. The focus of these projects is to reach, 
often, young people who are vulnerable to radicalization and 
help them develop the skills and confidence they need to resist 
recruitment and become committed extremists.
    Mr. Chairman, I have given you and the members an overview 
of our current and new initiatives to counter extremist 
ideologies. I have also highlighted the very positive trends 
toward greater interagency cooperation between the Departments 
of State and Defense.
    This struggle against the evils of terrorism will take many 
years, and we still have a great deal more to do to meet the 
challenges of violent extremism. We believe that we have made 
major strides in adapting to the new and sometimes daunting 
media environment of the 21st century.
    These initiatives, however, do not stand in isolation. 
Public diplomacy and strategic communications must continue to 
deploy all instruments at our disposal and must rely on the 
best and most up-to-date research data. We need to expand our 
use of the Internet and other new media, while continuing to 
support effective and more targeted educational exchanges, 
democracy programs, youth initiatives, et cetera.
    More importantly, we must continue to work harder to 
integrate our overall U.S. Government efforts, embrace new 
communication technologies and enlist the support of our allies 
overseas. We must continue to work toward a proactive position 
instead of one that is only reactive.
    The battle for the hearts and minds is one that will only 
succeed if we embrace innovation and use our Nation's great 
communication talents and creativity to the best effect.
    Thank you, sir.
    [The prepared statement of Mr. MacInnes can be found in the 
Appendix on page 32.]
    Mr. Smith. Thank you, Mr. MacInnes.
    Captain Pittman.

 STATEMENT OF CAPT. HAL PITTMAN, USN, ACTING DEPUTY ASSISTANT 
   SECRETARY OF DEFENSE (JOINT COMMUNICATION), DEPARTMENT OF 
                            DEFENSE

    Captain Pittman. Chairman Smith, Congressman Thornberry and 
distinguished members of the subcommittee, good morning.
    First, I would like to thank the subcommittee members for 
all you have done to support our military men and women in 
uniform. I appreciate the opportunity to speak with you today 
about the Department of Defense's efforts in strategic 
communication.
    As a military officer and a professional communicator by 
trade, I have served in multiple joint assignments, and I have 
observed firsthand many of the communication challenges we face 
today against a cunning adversary that does not have to tell 
the truth.
    While the U.S. military conducts a largely kinetic campaign 
complemented with communication efforts against violent 
extremists, our adversaries conduct an information campaign 
punctuated by kinetic exclamation points--suicide bombings, 
spectacular attacks and the like--to highlight their cause. In 
a long war where the real battle is a battle of ideas, 
America's enemies place a premium on telling their story, 
regardless of the truth.
    How we engage in this sphere is important. I believe in the 
need to maintain the credibility of our military and also in 
the need for transparency. At the same time, we must 
collaborate and synchronize our actions, words and images 
within both the Department and the interagency to maintain that 
credibility.
    Above all, strategic communication is a process, and the 
process of communication integration will require a long-term 
commitment and sustained effort by the Department in support of 
the U.S. Government.
    Today I will focus somewhat on process and try to briefly 
describe for this subcommittee some of the efforts to date that 
the Department of Defense has undertaken in this regard, 
specifically: the Quadrennial Defense Review Strategic 
Communication Execution Roadmap; the Strategic Communication 
Integration Group, or SCIG, process, which is the Department's 
strategic communication planning effort; support the State 
Department and the interagency; and education efforts focusing 
on helping strategic communication thinking occur naturally in 
every action.
    In September of 2006, Deputy Secretary of Defense Gordon 
England signed the 2006 Quadrennial Defense Review Strategic 
Communication Execution Roadmap. Mr. England cited three 
primary objectives in this document: first, to institutionalize 
a DOD process by which the principles of strategic 
communication are incorporated in the development of policy 
formulation, planning and execution; second, to define the 
roles, responsibilities and relationships and develop doctrine 
for strategic communication and its primary communications-
supporting capabilities--and those primary supporting 
capabilities include public affairs, aspects of information 
operations, principally PSYOP, visual information, DOD 
activities of military diplomacy and defense support to public 
diplomacy; and third, to properly resource military departments 
and combatant commands to organize, train and equip DOD's 
primary communications-supporting capabilities.
    One of the most significant successes of the roadmap to 
date is the establishment of both an integrating process and 
creation of a Strategic Communication Integration Group, or 
SCIG. The SCIG secretary coordinates and synchronizes 
communication plans and concepts within the Department. And a 
SCIG Executive Committee, or EXCOM, provides oversight and 
guidance. And I am the Director of the Strategic Communication 
Integration Group Secretariat.
    The DOD has also significantly increased in communication 
collaboration with the interagency. My office participates in 
working groups and has joined Under Secretary Hughes' Policy 
Coordinating Committee and sub-PCCs on a variety of topics and 
issues, including research, new media engagement, and content 
sharing, as Mr. MacInnes has indicated. We attend a 
collaboration group with DOD, State and United States Agency 
for International Development (USAID) and a weekly fusion cell 
meeting as well.
    DOD had direct input into the national strategy on public 
diplomacy and strategic communication through the SCIG process 
and has provided military manpower and expertise to the 
interagency Counterterrorism Communications Center, which was 
recently established and just mentioned.
    The Defense Department has also conducted multiple 
strategic communication education and training initiatives over 
the past two years to help institutionalize strategic 
communication as a process. Strategic communication and public 
affairs blocks of instructions are being incorporated into the 
joint professional military education, working closely with the 
war colleges. Advanced and expeditionary joint public affairs 
training courses are being developed as an Strategic 
Communications (SC) roadmap task, and they will be taught at 
the Defense Information School at Fort Meade.
    Simultaneously, DOD and State Department are exploring ways 
to leverage training resources. Interagency participants 
attended the first-ever DOD strategic communication interagency 
worldwide seminar in July 2007. And a State Department public 
diplomacy officer just attended the DOD strategic communication 
workshop which was just held a couple of weeks ago in Monterey, 
California, at the Naval Postgraduate School.
    In summary, we have come a long way in the past four years, 
particularly in the past two years since the Deputy Assistant 
Secretary of Defense (DASD) for joint communication was 
established. But the Department has a ways to go yet in 
realizing our long-term goal of institutionalizing strategic 
communication across the Department.
    We certainly appreciate your support of our efforts and the 
interest that you have shown by conducting this hearing. And I 
look forward to answering your questions.
    Thank you, sir.
    [The prepared statement of Captain Pittman can be found in 
the Appendix on page 39.]
    Mr. Smith. Thank you.
    Dr. Doran.

 STATEMENT OF DR. MICHAEL DORAN, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE (SUPPORT FOR PUBLIC DIPLOMACY), DEPARTMENT OF DEFENSE

    Dr. Doran. Mr. Chairman, members of the committee, I thank 
you for inviting me to speak on the issue of countering 
ideological support for terrorism.
    My written testimony provides more detail about this 
concept, but I would like to devote a few minutes in my oral 
remarks to highlight a few key aspects of it.
    The war we are fighting today is an information war, a 
global conflict of perception. Terrorist attacks, even ones of 
the magnitude of 9/11, are not designed to cripple the United 
States but, rather, to generate the perception of American 
weakness and vulnerability among key audiences across the 
globe. The spectacle of the attack is as important to the 
terrorists, sometimes more important, than the destructive 
effect itself. At their essence, terrorist attacks against 
America are tools in a contest for power and authority within 
Muslim societies.
    Our goal is to purposefully join and influence a political 
process, an ongoing multi-sided conversation that is proceeding 
independently of the United States.
    The recent success enjoyed by General David Petraeus and 
his Iraqi allies has dramatically demonstrated to us the 
primacy of intra-Muslim politics in counterinsurgency and in 
countering ideological support for terrorism. The General has 
taught us that coordinating our statements and actions is an 
important component to influencing the internal Iraqi debate 
over legitimate political authority in that country.
    But countering ideological support for terrorism is not 
primarily about creating brand America. It should not be 
reduced solely to executing public diplomacy campaigns whose 
objective is to burnish the image of America. Those are 
laudable efforts, and we fully support and encourage them, but 
they are not the essence of what countering ideological support 
for terrorism is all about.
    The key question is, how do we join and influence this 
intra-Muslim conversation in order to undermine the 
intellectual and perceptual underpinnings of terrorism? 
Terrorists actively foster the perception that the global 
Islamic community is under severe threat. To counter this 
perception, we must inject critical doubt among key populations 
about the terrorists' vision of hate and fear.
    For their vision to have any credibility, terrorist groups 
seek to foster a sense of doom, a sense that midnight is fast 
approaching. To manufacture this threat, al Qaeda and others 
argue that the United States and our allies are somehow placing 
the global Islamic community in peril. To counter this, we must 
chip away at the bleak picture of helplessness and 
vulnerability that supports it.
    Our enemies foster a culture of blame to foment anger, 
hatred and a sense of victimization. They offer their violence 
as the only solution to the challenges of today. To be 
successful, we must focus on the self-perceptions of key 
audiences rather than perceptions of America. Our core message 
must outline an alternative future that is more attractive than 
the bleak future offered by the terrorists. This positive 
narrative must contain more than just antiterrorist rhetoric. 
It should include elements that will positively impact the 
future lives of Muslims everywhere.
    To promote this objective we cannot simply focus on getting 
our message out. Success requires taking actions that make the 
alternative narrative real. Thus, key components of the 
successful strategy include civil affairs, security, education 
reform and economic opportunity.
    In Iraq's Al Anbar province, we are beginning to see the 
process of combatting ideological support for terrorism done 
correctly. Just a few short months ago, public commentary in 
this country widely suggested that al Qaeda was firmly 
ensconced in Iraq. In fact, we now know that al Qaeda is not as 
welcomed in Iraq as outside commentators claimed, especially 
after the Anbar Salvation Council emerged in late 2006 to 
oppose al Qaeda's violence, extremism and attacks on civilians.
    This trend appears to be accelerating, since, just last 
week, Major General Joseph Fil, Commander of U.S. forces in 
Baghdad, told the media that al Qaeda in Iraq has been cleared 
out of the Iraqi capital and that Iraqi families are returning 
to their homes.
    By countering ideological support for terrorism, we seek to 
appeal to the self-interest of local communities whose values 
and aspirations find no expression in al Qaeda's world view. 
Although it claims to speak on behalf of all Muslims, we should 
not be taken in by al Qaeda's propaganda or endorse its 
inflated sense of its own ideological appeal.
    Our countering-ideological-support-for-terrorism approach 
seeks to force al Qaeda to live as an actor in our alternative 
pro-future narrative. The reality is that governments and 
citizens today are fighting against al Qaeda. I am not 
declaring universal success, but to paraphrase a famous quote 
from Winston Churchill: In Iraq, what we are seeing is not the 
end, it is not the beginning of the end, but it is, perhaps, 
the end of the beginning.
    With that, I conclude my oral remarks. My written testimony 
will be submitted as part of the record, and I look forward to 
your questions. Thank you.
    [The prepared statement of Dr. Doran can be found in the 
Appendix on page 52.]
    Mr. Smith. Thank you all for your testimony.
    I will pass, and I yield to Mr. Thornberry.
    Mr. Thornberry. I yield.
    Mr. Smith. Ms. Castor.
    Ms. Castor. Good morning.
    How do you divide the differences and responsibilities in 
missions of the Department of State and the Department of 
Defense? I know you all work together and collaborate on a lot 
of different initiatives when it comes to worldwide 
communications, but I would like you to detail how they differ 
and where your concerns lie with, maybe, mission creep of one 
agency to another.
    Captain Pittman. With regard to my specific area of 
expertise, it is the Strategic Communication Integration Group, 
essentially the development and staffing of strategic 
communication plans on behalf of the Department of Defense. 
Obviously any efforts that we make are designed to plug into 
the greater effort of State Department.
    But, you know, the process of staffing plans and 
development is a time-consuming process of ensuring that all 
the offices with tasks and responsibilities in a particular 
communication plan come together in harmony, horizontally 
integrating all of those efforts kind of across multiple lanes.
    A perfect example is the recent Afghanistan strategic 
communication plan that we worked on. It took probably about 
four months to complete that plan, but once completed, it had 
elements of interagency support. It was nested with the plans 
that were already in place from the State Department and 
through North Atlantic Treaty Organization (NATO) International 
Security Assistance Force (ISAF). And it had, specifically, 
execution pieces that were the responsibility of Central 
Command elements, of other elements within the theater of 
operations there.
    It is a challenging responsibility, but we have multiple 
meetings on an ongoing basis with our colleagues, kind of, 
across this spectrum and in larger groups. Again, it is about 
integrating the process. It is not about creating new 
stovepipes or organizations, but, rather, making sure that we 
are all working in harmony and synchronization. It is a 
challenge. It is hard to align those efforts, but we are 
working to that end.
    Ms. Castor. Are the DOD communications efforts concentrated 
on the Central Command (CENTCOM) area and then, of course, 
through Special Operations Command (SOCOM) especially?
    Captain Pittman. I would offer to you, ma'am, that there 
are certainly discrete efforts across all the combatant 
commands. And I use the CENTCOM example because it is one 
example of a pretty robust plan that we recently tackled, but 
there are multiple efforts.
    Obviously, there is a lot of time and energy currently 
spent on our activities and operations in the Central Command 
theater, so there is a lot of effort that goes into that. There 
is a lot of resources, and a lot of people working at different 
levels, kind of across the spectrum, on those particular 
issues, just because they are so dynamic and they involve our 
Government to such an extent.
    Mr. MacInnes. For the State Department's view, two things 
mentioning what Captain Pittman talked about. We are actually 
doing a lot more things than in the past. I mean, the scope of 
what we have to handle is global, and the borders for Internet 
and other activities don't exist.
    And we have a very close coordination relationship with 
public affairs. That is traditional; that has always been that 
way. PSYOPS and operations that were theater-based, meaning in 
areas of active war, are now global because of the nature of 
the global war on terror. In other words, it has moved beyond 
being localized.
    And that means that we have had to learn how to coordinate 
our efforts globally on issues like information operations, 
PSYOPS and public affairs and public diplomacy. It is not an 
easy thing, and, actually we didn't do it well, certainly at 
the turn of the century.
    But we actually have taken this on. We have realized that, 
because so many different elements are now involved in this 
activity of what you might call strategic communications writ 
large, that we do need these coordinating mechanisms to be able 
to sort out and to reinforce and to not duplicate but to also 
not stumble over each other. And we have actually created, I 
think, ways that we are moving in that direction quite robustly 
right now. I think that was missing before. But that is all.
    Dr. Doran. If I could just add to that, since Duncan set up 
the CTCC, that has been enormously helpful for us. We in the 
Department of Defense recognize that State has the lead on 
this, and we need their leadership.
    The problem that we had before the CTCC existed, I think, 
was not so much that we were getting in each other's business 
but that we were synced up and that we weren't working as 
closely together as we might have been. And we hadn't 
explained, I think, to State what we need from them by way of 
leadership in this area.
    Now that the CTCC is there, we have developed processes and 
relationships that I think allow for the two agencies to 
understand each other much better and to work much more 
effectively together in this area.
    Mr. Smith. Thank you.
    The gentlelady's time has expired.
    Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Well, first, is there anything that Congress needs to do, 
or the executive branch, for you to be able to work more 
effectively together? Or, under the current structure, do you 
have what you need? Is there anything we need to do to help 
you?
    Mr. MacInnes. I believe that we have actually moved--we 
have set up mechanisms that are beginning to really show that 
we can do this and we can do it well. And what we are trying to 
avoid is setting up layers and big bureaucracies. I mean, the 
Counterterrorism Communication Center is really 12 people. That 
is a very small group, but what we need to do here is 
coordinate, not reinvent. And so, I don't see, particularly, 
any new authorities that we need.
    Captain Pittman. I would second what Duncan has indicated. 
A lot of the sub-PCC efforts are now working at looking at 
efficiencies and the sharing of information and content, things 
like a shared databank of photography imagery, shared 
strategies on engaging new media and that sort of thing. These 
are the sorts of things that we are working toward right now.
    On the resourcing side, how I would respond to your 
question, ma'am, is that there is a strategic communication 
roadmap which lists a variety of discrete issues which 
represent capability gaps across the spectrum, or across the 
enterprise for strategic communication. There are specific 
issues about developing the capabilities of the Department to 
be more robust and to be able to meet all of our challenges. 
And that roadmap actually looks at funding across the Future 
Years Defense Program (FYDP). It is not a short-term effort, 
but rather it is a longer-term effort.
    I will give you a couple of quick examples. For example, in 
fiscal year 2008 funding, we have allotted $10 million to the 
Digital Video Transportation System (DVTS), which is a portable 
satellite communications system that is predominantly deployed 
in the Central Command theater but also deployed in other 
areas, that allows our commanders and subject-matter experts to 
be able to broadcast live, real-time, back to organizations in 
the States to be able to address the media in real-time.
    Another example is the Joint Public Affairs Support 
Element, which is based at Joint Forces Command down at the 
Joint Warfighting Center in Suffolk, $3.3 million allocated in 
fiscal year 2008 funding for that evolution. And that is a 
capability, a small unit of about 50 people, that is able to 
deploy in expeditionary instances around the world to support 
the public affairs, public communications efforts of the 
Department.
    So these kinds of things.
    Another example is, just within the Assistant Secretary for 
Public Affairs, $2 million that will go toward the Defense 
Information School for bolstering courses and the development 
of a couple of courses which essentially meet the requirement 
for roadmap tasks to provide intermediary and senior courses 
for our communicators.
    So these kinds of efforts are discrete, and they are kind 
of built in to separate budgetary requests from different 
offices of primary responsibility. But they go a long way 
toward developing the capabilities of the Department.
    Mrs. Drake. And I am going to assume that the bulk of your 
message is sort of a moderate Muslim message, as opposed--to 
kind of offset the extreme message? I mean, I didn't get the 
impression this is a U.S. message. This is more in support of a 
moderate Muslim message?
    Dr. Doran. I was putting the emphasis there. I think it is 
both. We definitely have to get our message out. But I was 
putting the message there, the emphasis there, because I think 
there needs to be a culture shift in how we perceive the threat 
that we face and how we develop the tools to deal with it.
    And that is how I would answer your original question, 
about what you might do. I think you can help us in shifting 
the culture.
    To give you a more specific example, our intel communities, 
both within the Department of Defense and the intel community 
writ large, they tend to collect against threats, against 
specific terrorist threats to the United States. And they don't 
tend to collect against open source, public discussions about 
politics and public opinion and so forth. And in some elements 
of the intel community, you find out that they don't consider 
public opinion to be part of intel collection.
    But if you consider the example that I gave in my oral 
remarks here of Iraq, the appeal of the terrorist message in 
Iraq among Sunnis is not so much the intrinsic content of the 
message but the sense that Sunnis had that they were going to 
be dominated by Shias as a result of the change in Iraq.
    So focusing in on the domestic Iraqi debate about relations 
between Sunnis and Shia would have been or should be a central 
U.S. national security objective. But our intel community, 
coming out of the Cold War, is much more inclined to look for 
that terrorist who might be about to carry out an attack. That 
is very important to do, but there is this wider spectrum.
    Representative Thornberry's bill, 2800, has one mechanism 
for bringing about this kind of shift and developing the kind 
of cultural sensitivities that we need to develop.
    Mrs. Drake. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mrs. Drake.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. MacInnes, the digital outreach teams, can you talk to 
us a little bit about how you oversee that or the oversight to 
make sure that they are staying on message? And that when you 
use the word ``creativity,'' how do you make sure that it stays 
within the white lines that we think is appropriate, given that 
this, I suspect, is being conducted in Arabic or Farsi or some 
language that not many of us can interpret?
    Mr. MacInnes. That is a very good question. Those are 
questions we struggled with when we set this up.
    It is clearly difficult for a government organization to do 
blogging, because blogging tends to be a very informal, chatty 
way of working. And, of course, it is actually very dangerous 
to blog, because when you make a statement to the press in a 
press conference, you know what you are going to be saying; in 
a blog, you have to actually have a conversation rather than 
just a lecture, so it is very difficult.
    But what we have, though, is we developed a technique and a 
paradigm. We have a senior State Department--a very experienced 
officer who served in Iraq who understands the Muslim world, 
and he is the supervisor for that group. They discuss each 
posting before it goes up and look at it. And we do not make 
policy there. We stick with policy. But what we are doing is 
getting at the issue sometimes of motivation.
    Many of the things that are on the Web ascribe to America's 
bad motivations for what we do. You know, they may be perfectly 
aware of what our policy toward Iraq is, but they are doing it 
because you are there to destroy Iraq for Israel or you are 
there for oil or other things. Our job is to address that 
motivation issue and show them that is not the motivation.
    You need the creativity and what I call the bridging. 
Because you can't just say, look, here is our policy and drop 
it into a blog. You have to have what I call a bridge. And we 
use bridges, we use sports, poetry, current events to do those 
bridges that are noncontent-related but allow one to get to be 
in a conversational mode with people.
    What we have found, though, most interestingly--because we 
worried that we would be, in the parlance of the Internet, 
flamed when we came on, well, ``These Americans, get the heck 
off my site,'' you know. What we found instead--and we deal 
with mainstream sites; we are not actually going to the 
hardcore terrorist sites. We are going to the mainstream sites, 
because we believe that we must convince the general public in 
the Arab-Muslim world not to support terrorism even tacitly, 
and we are trying to counter those messages. But what we found 
is people were very glad that we were there. We had postings 
like, ``We don't like your policies, but we are sure glad you 
are here talking to us about it,'' or, ``We appreciate the fact 
that you have taken the time to come and speak to us.''
    Mr. Conaway. Right.
    Given that we have got a message, can you talk to me a 
little bit about your perception, any of the three of you, as 
to why the moderate Muslim world, the vast majority of peace-
loving, peaceful Muslims, have not been a better help to us? I 
mean, my simplistic view is this is a battle for the heart of 
Islam. And it is not our fight, in the sense that I don't know 
that I could effectively have that kind of input.
    But the 80-percent-plus that are moderates, why have they 
not joined the ruckus to say and to be more open and more vocal 
in terms of trying to reclaim this religion from the far 
extremists, and being more of an ally for us as opposed to 
simply a silent majority out there that does not seem yet to 
have taken sides the way I would have expected them to?
    Dr. Doran. I am not sure that I would put it that way, 
exactly.
    If I go back again to the example of what is going on in 
Iraq, you see the Sunnis in Al Anbar are risking their lives 
standing side by side with us against al Qaeda, whereas a year 
ago they weren't. So it isn't love of the ideology, and it 
isn't an inherent weakness in people, because these people are 
being very courageous today. It is a set of local circumstances 
on the ground.
    I think, more often than not, it is a lack of a tradition 
in the Middle East of participatory politics, and it is fear: 
fear from the security services and fear from al Qaeda. And 
when those circumstances are changed, then we find people 
standing up. So it is a whole complex of issues.
    Mr. Conaway. Excuse me, Dr. Doran. What about the folks who 
aren't in those security positions, who aren't threatened daily 
by--let us get out of Iraq and--poor phrase from my side of the 
aisle--and look at the Muslim population at large across the 
world. You know, they are not all directly threatened. But why 
is the mindset that it is okay for them to sit on the sidelines 
and allow the extremists to hijack their religion? Any insight 
there? I don't have any.
    Dr. Doran. I think the single most important factor is a 
lack of a tradition of participatory politics. You just don't 
find them organizing for any issue, not just along this.
    Mr. Smith. The gentleman's time has expired. If you have 
one more quick one, I will let you fire it off there.
    Mr. Conaway. I will wait for another round.
    Mr. Smith. Thanks.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    If I could ask you a couple of questions in my time 
allowed, so let me ask the first one. If you can tell us, does 
the U.S. Government have a human capital strategy that supports 
our national strategic communications effort? And, 
specifically, does that human capital strategy--how does that 
impact on recruiting, retention and personnel management?
    Mr. MacInnes. For the Department of State, we have very 
little trouble recruiting, certainly. We have a long waiting 
list of people trying to come in. We currently and at all times 
have always needed more people. I mean, in fighting wars of 
ideas, you have never done your job, because there is always 
something else to do.
    I think getting area expertise has been very important and 
getting language training. We have made a major effort at the 
State Department to increase our cadre of fluent Arabic 
speakers to be able--and that has paid some results now. We now 
have people that have come through that system that are going 
on the air and speaking in Arabic on television and radio.
    But we have always had a strong area of expertise, but that 
is an area that we actually have to expand that even further. 
And language has been one of the key issues for us.
    Mr. McIntyre. So if recruiting is not a problem, is 
retention a problem?
    Mr. MacInnes. Retention has not been a problem. The biggest 
problem, I think, is overall numbers maybe are not at the level 
we would like to have. We have more positions than we have 
people, at this time.
    Mr. McIntyre. Can you tell us, with regard to personnel 
management, if there are issues there, as part of your human 
capital strategy? Are you comfortable with the personnel 
management as it is in place, or do you think there need to be 
improvements made?
    Mr. MacInnes. Well, there always can be improvements. One 
of the problems that those of us who work overseas a lot have 
encountered is that the dynamic of serving overseas with 
families is harder, because spouses expect to work. The dual-
spouse working is standard now. In the 1950's and 1960's, you 
could go overseas and basically the spouse did not work. 
Nowadays, there is a different expectation level for that.
    And the other is it can be difficult for people with 
children, because levels of schooling vary widely across the 
regions out there. And school matters a lot to people.
    So those are issues that we work on all the time, that we 
have made a lot of accommodations for tandem couples and for 
people working together and for other things. But, of course, 
more needs to always be done on that.
    Mr. McIntyre. So are you saying it does not negatively 
impact, though, your retention of personnel?
    Mr. MacInnes. It has not.
    Mr. McIntyre. And when you say there are more places 
available than people but yet you say there is not a problem 
recruiting, how do you solve that issue? Do you think you need 
to be more proactive in recruiting or what?
    Mr. MacInnes. I think we have certain ceilings that are set 
in terms of numbers we are allowed to have. I am not sure. I 
could take that question, because I am not really--personnel is 
kind of a little far from my area of expertise. I wouldn't want 
to venture----
    Mr. McIntyre. If you could check into that and get back to 
us on that.
    Mr. MacInnes. I will.
    Mr. McIntyre. If you would do that by the first week in 
December. Can you do that?
    Mr. MacInnes. Yes.
    Mr. McIntyre. All right, thank you.
    The other thing is we obviously need to be from a legal 
standpoint, being the legislative branch, whether there are any 
legal or regulatory impediments that we need to address in 
Congress or that you believe the executive branch needs to 
address to make this strategic communications effort more 
effective. Can any of you speak to that?
    Dr. Doran. I think it would be worth looking into something 
like the 1206, 1207 authorities, so that when you have 
situations on the ground where, let us say you have a moderate 
imam who is preaching a message that we think should have a 
larger listening audience, and you find out that the Department 
of Defense has part of a broadcasting facility and USAID has 
another part, that the two of them could more easily transfer 
resources. If the heads of both agencies agreed, I think that 
kind of thing could be very helpful for facilitating exchanges 
in the field.
    We often find a situation where the Department of Defense 
has lots of resources and the authorities or responsibilities 
fall to the Department of State. And if there was a more 
streamlined mechanism for moving resources back and forth, it 
could be helpful. It is worth at least looking into.
    Mr. Smith. Thank you.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Mr. Smith. Mr. Saxton.
    Mr. Saxton. Mr. Chairman, thank you.
    And I want to thank the ranking member for calling our 
attention to this piece that was written by Mr. Satloff of The 
Washington Institute for Near East Policy. I think it has a 
real nugget of value in it. It talks about what we need to do 
to be successful in this situation. And he says here, ``This 
requires a conceptual revolution. Rather than expand effort on 
winning Muslim friendship for America, our engagement with 
Muslim publics--what we call public diplomacy--should focus on 
identifying, nurturing and supporting anti-Islamist Muslims.'' 
I think that says a great deal in just a few words.
    And I have watched our Republican Administration, I have 
watched the previous Administration try to deal with programs 
to accomplish what I think we can all agree is a very 
worthwhile and necessary goal. But we, it seems to me, for the 
last 15 years, almost 16, going into our 16th year, in the last 
two Administrations facing this situation, it is natural for us 
to view this situation and how to achieve that goal based on 
our perception of success, based on our perception of what 
values in the West and around the world should be, and, I 
think, a very basic failure on our part to be able to cross a 
bridge, a bridge of understanding other cultures, particularly 
the Islamist culture.
    We have advocated education programs. We have advocated 
economic advances in Muslim countries. We have advocated 
establishing and supporting democracies in other countries. And 
I think that we have not crossed that bridge of understanding, 
of understanding what motivates people from the countries that 
we desire to have an effect on.
    I think of Lebanon often. And I was never there when 
Lebanon was in its glorious years, influenced by the West, 
ruled by a democratic process, with a great economy. All of the 
elements in a Muslim country that we would like to see today, 
from a Western perspective, were there, and we all know what 
happened.
    And when we look at the countries where we are engaged 
today, there are failures and there are successes. And I would 
submit that the successes, in establishing Satloff's well-
stated goal, I would submit that the successes that we have had 
have been partly because of us but mostly because of Muslims 
who have been influenced by the situation.
    In the Anbar province, for example, great successes today. 
In the Diyala province, success is perhaps not as good, but 
great successes, because somehow tribal leaders, Muslims, 
Sunnis, became influenced to help carry out this goal. And so, 
somehow or another, we crossed that bridge, at least in a 
couple of places, in order to carry out the goal that we would 
all like to see carried out.
    And I guess I would just conclude, and then ask for your 
comments on this--I would just conclude by saying this. One of 
the understandings that seems to be prevalent, at least in 
Anbar, in the Diyala province, is that tribal leaders became 
convinced of two things: Al Qaeda was bad, and the United 
States and the West wasn't going to go away; we were going to 
stay there and support them.
    Mr. Saxton. And to the extent that we should learn from 
those lessons, Lebanon on the one hand and Anbar and the Diyala 
Province on the other hand, there are some real lessons to be 
learned there in how to carry out and achieve Satloff's goal.
    What do you think?
    Mr. Smith. And you have 10 seconds to express your thoughts 
on that. I will give you slightly more to that. We have got a 
vote coming up shortly.
    Mr. MacInnes. I would say on--I mean, Iraq is a very 
special case because it is deeply into war; and actually, when 
you talk about the broader Muslim and Arab world, one of the 
things in terms of getting our values and talking to people 
about these issues is that we have sent out quite a number of 
American Muslims to talk about precisely those issues: about 
what it means to be--what it means to have a site engaged, and 
discussing and fighting back against extremists.
    We also have brought a lot of clerics--several hundred 
clerics from overseas, Muslim clerics--to the United States to 
look at how we do diversity and religion and how society can be 
supportive of religion and opportunities.
    And, last, a lot of our programs overseas look to try to 
create the kind of economic and political opportunities to keep 
people--they make people involved in a positive way in society.
    Mr. Smith. Ms. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    I have two areas of inquiry that I want to cover if I can. 
The first is, you are here to talk about communications 
strategy, and I want to talk about the use of language, because 
one concern I have is that this Administration has painted all 
terrorists as Islamo-Fascists, and if we look at this article, 
How To Win the War of Ideas, by Robert Satloff, he calls them 
Islamists.
    Now, if we are trying to win a war of ideas using the 
fundamental tenet of Islam in the middle of a world that 
connotes terrorists, is that an effective communication 
strategy? It seems to me that when we are creating our foreign 
policy to deal with various elements that we are concerned 
with, they have different leadership, they have different 
values, they have different goals; they will require a 
different attack strategy. And so to paint them with one brush, 
I would find as--if you painted a Christian group with a 
Christian label and framed it as a terrorist group, I would be 
offended.
    So have you heard or is there any feedback from your 
expertise that this broad brush is actually counterproductive?
    Mr. MacInnes. Yes. Two things.
    One of the things that we look at when we do messaging in 
the Counterterrorism Communications Center and with DOD is, we 
have to be keenly aware of what we say--what we say may not be 
what they hear--and that you want to be saying things that they 
hear the way you want them to be hearing it.
    When we say ``Islamo-Fascism,'' whether that term has 
meaning or not, what they hear is, ``We are Islam, attacking my 
religion.'' When you say ``Islamist,'' they don't; they hear 
``Muslim,'' you know. And as one of my Arab friends said once, 
you don't start a conversation by poking a stick in the eye of 
the person that you are trying to talk to; and that is--when 
you say ``Islamo-Fascism,'' it is the verbal equivalent of 
poking a stick in somebody's eye.
    And they do not--and bin Laden has been very good at taking 
our words and turning them to his advantage by saying, See, 
they are actually at war with Islam. And we fall into the trap 
of, you know, of having to answer that question, like, Have you 
stopped beating your wife? You can't answer that well.
    Mr. Smith. If I could interrupt, I want to draw a point on 
this.
    I think what you are saying basically is, the word Islam-
Muslim should be no part of how we describe al Qaeda and who we 
are fighting. Again, that is something we have struggled 
against, the Islamo-Fascist comment, ``Islamists,'' no matter 
how you put it. And I have been through this over the years 
figuring out how to put it, because you think, well, logically 
they have a certain religious bent.
    But I think the ultimate answer, what Ms. Gillibrand is 
pointing out, is, there is no way you can put Islam in there; 
and is that a decision that our strategic communications folks 
have made? Let's call them--you know, al Qaeda, call them Qutb, 
which is one person that they followed--find something else to 
call them that does not give them any piece of the Islam label.
    Is that a decision that you have made?
    Mr. MacInnes. We basically call them terrorists, murderers, 
what--basically what they are. But when you want to talk to 
them as Muslims, you are better off using a positive Muslim 
voice saying that.
    When we talk about Islam, we are not credible in terms of, 
you are not a Muslim. So what we actually have examined--and 
Dr. Doran talked about it earlier--is, we are looking at 
getting and collecting those positive statements made by 
leading Muslims against terrorism. And they can say--you know, 
they can use the word ``Islam'' and talk about Islam, and they 
are very convincing. And we are finding that there is a lot 
more of that going on now than was previously.
    I mean, there are editorials. There are great concerns that 
poke fun at terms. And I think that Muslims are concerned very 
much about their religion being hijacked. But, as Dr. Doran 
said, they are not a society that tends to have a lot of public 
debate.
    Mrs. Gillibrand. And what is your experience in the 
military? Are we beginning to change our terminology?
    Captain Pittman. I think lexicon is always important, and 
we look at these kinds of things when we are working together 
to develop messaging. And we have some people who have studied 
these areas quite a bit. We are always focusing on trying to 
get more regional, cultural expertise, et cetera.
    But part of the challenge is pushing it down to the very 
lowest levels because when you have operational, you know, 
activities going on in a country, then you need to be able to 
have specific cultural expertise in that area.
    Mrs. Gillibrand. Do you make these recommendations to the 
higher levels, too? Because this is something--I mean, if you 
watch the Presidential debates, you will have Presidential 
candidates using this terminology, you will have the 
Administration using this terminology.
    Have you made those recommendations to the higher-ups that 
if you are going to have a better communication strategy, 
choice of identifying language is something that has to be a 
priority.
    Captain Pittman. I think language is something that 
leadership focuses on. I think that phrases like ``violent 
extremists'' as opposed to using ``Islam'' in a 
characterization or whatever, I think that is something that we 
have evolved to over time. I don't think it is something that 
we naturally can bow at the beginning of this.
    Mrs. Gillibrand. I would encourage you all in your 
positions of expertise and advocacy to help improve how we 
address this issue.
    The second question I just want to raise quickly is, in 
your digital outreach teams, you only have two individuals 
doing it now. What kind of recruiting are you doing on college 
campuses? This is an area where I would think, for the 
military, there are enormous numbers of young individuals who 
would love to be part of winning the war on terror, whom we 
could develop to look to become foreign language experts, to 
work in a different capacity for the military to do things like 
blogging and reviewing Websites.
    What is your long-term plan, strategy to build that 
capability?
    Captain Pittman. I will address that from the defense side, 
and Duncan can roll in as well.
    There are actually--I mean, the digital outreach team at 
the Counterterrorism Communication Center is one cell. But 
there are also discrete operations within combatant command 
headquarters. For example, Central Command has a blogging 
capability that they used at that headquarters level.
    There are new media-type engagement efforts at lower 
levels. The Joint Forces Command, for example, has a blogging 
engagement capability, and they have written a pamphlet or a 
brochure on how to go about doing that. So it is an area that 
we are moving into.
    The Department of Defense has new media engagement as well.
    Now, does that mean that we have Arabic speakers or Farsi 
speakers? It doesn't necessarily mean that. Sometimes in the 
field there may be contracted capabilities that are working in 
these areas to address these types of new media. But it 
certainly is an area that we are sharing with State in trying 
to better our knowledge.
    Mrs. Gillibrand. But are you actively recruiting on college 
campuses for these new kinds of talents that could be brought 
into either our diplomatic side or our military side to really 
add value to our mission here?
    Captain Pittman. I would tell you that I don't believe that 
it is drilled down to the extent that we are specifically 
seeking those skill sets. Rather, for example, in recruiting 
military personnel, we would look for a background, perhaps, in 
media. I mean, almost all young people coming into the military 
today have some experience in using new media, and much more 
than people our age, for example.
    Mr. Smith. The gentlelady's time has expired.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    Mr. Smith. I have just a couple of questions.
    One, in terms of how our audience in this war of ideas gets 
their information, you know, what is the best medium for 
reaching them? And there are a whole bunch of different mediums 
out there, depending on who your audience is and where they get 
their information.
    From my own campaign experience when I was first running, 
you know, for Congress, there were a lot of different ways to 
reach the people in my district, the ones who are going to 
vote--radio, mail--but just sort of walking around and having 
grown up there, I knew that television, if you will, that is 
the killer app. If I had a limited amount of money, and I did, 
it should all go there because that is where they are going to 
get the bulk of their information.
    That was 12 years ago, so things may have changed.
    But in the audience out there, sort of the disaffected 
Muslim world, the ones we are trying to persuade, have you 
discovered sort of what is that best source of information? 
Where do they get their information? When they develop an 
opinion, where is it coming from? And what have we done to try 
to get into that medium in the most effective way possible?
    Mr. MacInnes. That is a very good question and one we 
grapple with all the time.
    First of all, what happened in the modern 21st century is, 
audiences have segmented a lot.
    Mr. Smith. It is a lot more difficult.
    Mr. MacInnes. I watch television a lot--news. My son, who 
is in high school, never watches television, but gets lots of 
information off the Internet.
    Mr. Smith. There are hundreds of channels.
    Mr. MacInnes. So, for the general public in the Muslim 
world, television is the most powerful medium, without 
question. For the youth audiences in much of the Muslim world 
that is well connected to the Internet, it is Internet 
without--okay. So we need to do both.
    But what happens is, there is a relationship between the 
Internet and television. You know, bin Laden puts a video on 
the Internet and if it gets picked up by TV, TV runs something, 
the segment gets put onto YouTube.
    So we need to do both.
    Mr. Smith. And if I may make the observation, based on a 
previous hearing we had on this subject, we need to do a lot 
more on the Internet.
    And I think you guys get it. I think the people in the top 
leadership now understand that. We have not--and this sort of 
follows up on Ms. Gillibrand's question, we have not put the 
resources into it. I mean, once I discovered that television 
was the thing, I stopped doing everything else, and every 
nickel I could, you know, I put into that.
    I don't sense that we have seen--we have done the same with 
the Internet. We are vaguely aware of it. We don't have enough 
people involved, and we need to do more, dramatically more; and 
we would like to be helpful here on this committee and in 
Congress in doing that.
    Is that a fair assessment?
    Mr. MacInnes. I think that is a fair assessment. I think we 
have identified that we are weak there and we need to move into 
it.
    One of the things, to answer--Ms. Gillibrand's earlier 
question was on recruitment. One of the things we are looking 
at for Internet is, do we need to have it done within the 
government? Is that the most effective way to be doing it?
    We need to be doing some of it. But we also have been 
working, like, with the University of Southern California 
School of Diplomacy on, are there ways we can get people 
outside the government to be doing it? Because they will be 
more effective. They can be freer. They can say, I don't like 
this policy, but--which we--we are in somewhat of a 
straightjacket.
    So we would like to seek out ways that we can get 
nongovernmental organizations involved in using the Internet 
against extremist terrorism in ways that amplify, because the 
Internet is best done, often, as a decentralized----
    Mr. Smith. I just have one more question, and we are going 
to have to wrap up.
    We are blending a new regime now. We are actually doing 
votes now in 15 minutes, instead of a half hour, so I have to 
let members go to get over there in time.
    And that is: Who is really in charge of the operation? 
Because we have heard a lot of different organizations, I sort 
of get the sense, that the CTCC coordinates; and on the other 
hand, we have the position that Karen Hughes is currently 
occupying and leaving. Someone will be taking that post.
    You know, if we were to say, Who is the person in charge of 
strategic communications within the whole government, and State 
is the central, but is it the CTCC? Is it Karen Hughes's shop? 
Is it you?
    I mean, who really is in charge of the overall operation?
    Dr. Doran. Karen Hughes.
    Mr. MacInnes. Karen Hughes.
    I do have a proviso there on overt strategic 
communications. We don't have authorities on the internal side. 
And there are things that need and have to be done on that 
side.
    Mr. Smith. Understood.
    And it is really, I mean, the covert piece--I mean, there 
are a lot of different things going on. I think it is more of 
the overt piece that we are interested in.
    And so it flows from Karen Hughes, down; the CTCC then 
coordinates.
    So does the head of the CTCC then report directly to Karen 
Hughes on a fairly regular basis?
    Mr. MacInnes. Yes, very much so. But again, the CTCC is 
interagency. The deputy director is a DOD officer, and it is 
interagency in its nature and makeup.
    Mr. Smith. But from a hierarchy standpoint, they then 
report up and go on from there?
    Mr. MacInnes. Yes.
    Mr. Smith. That is all I have.
    Do you have anything to wrap it up?
    Mr. Thornberry. Thank you, Mr. Chairman. I have a few 
questions in the limited time we have.
    I just mentioned--in response to the point you were asking 
about, my understanding is that for a substantial segment of 
the Muslim population, short-wave radio is still a big deal, 
and yet too many--there is some issue of funding where we are 
no longer funding some initiatives of the government that we 
have funded in the past. And so, while I agree with you 
completely on the Internet, different strategies, different 
mechanisms seem to make sense in different places.
    I want to get briefly back to Mr. Saxton, because I think 
he very eloquently laid out the heart of this issue and not 
everybody had a chance to respond.
    I am looking back at that Defense Science Board report I 
mentioned before, and it talked about building on an in-depth 
knowledge of other cultures and factors that motivate human 
behavior, which it does seem to me is the heart of the matter. 
He laid out the contrast between Lebanon and some of the recent 
successes in Anbar.
    Dr. Doran, on a scale of 1 to 10, how would you rate our 
in-depth knowledge of other cultures and factors that motivate 
human behavior as are applied to our strategic communication 
strategies?
    Dr. Doran. I would give us a five or a six. It differs in 
different areas. I think we can do a lot better on that.
    But I would put the emphasis on, as I said before, the need 
for a huge cultural shift. It isn't because people aren't 
trying, but the institutions and the processes that we have set 
up are really geared for another era and another threat.
    Mr. Thornberry. I guess that is--let me ask you.
    Mr. Smith. I apologize. I have to run. I will let you wrap 
up the meeting, if that is okay, and finish your questions, but 
I have to get to my office before I get to the floor.
    Thank you.
    Mr. Thornberry [presiding]. Mr. MacInnes, how many folks do 
you have working at the Communications Center?
    Mr. MacInnes. The Communications Center is 12 people. We 
have kept it deliberately very small because we are not trying 
to be a production unit, but more of a----
    Mr. Thornberry. So you don't intend to expand?
    Mr. MacInnes. We don't intend to expand. We might go to 18, 
but I doubt more than that.
    Mr. Thornberry. This may be an unanswerable question, but 
what you have essentially described, an interagency cooperation 
collaboration, that seems really hard to make effective in a 
time when communication goes at the speed of light.
    Now, if you are to develop a--you know, I think maybe you 
said earlier, before you post on a blog, you have to talk about 
it and make sure that posting is going to be okay. How can that 
possibly be effective?
    Mr. MacInnes. It can be effective, but the turnaround time 
needs to speed up, there is no question.
    One of the things Karen Hughes set up is this rapid 
response unit because we used to, like, read the news in the 
morning and get somebody on the air about 5 in the afternoon. 
Well, in Europe, that means you have missed the nightly news; 
it means you missed 24 hours of the cycle.
    Now we actually have it so that, by 7:30 in the morning, we 
have heads up; we will get somebody on the air to answer a 
question in Europe by 11 in the morning, which means you get on 
the nightly news.
    Doing that on the Internet requires greater efforts on our 
part. It requires more robust efforts and a more 24/7 effort.
    It is true when we have the cycle, it is relentless and it 
is very difficult. And we are grappling with that because 
bureaucracies do not move as fast as--we need to be more 
entrepreneurial. We need to figure out ways to be more 
entrepreneurial in how we deal with this, because the 
traditional ways do not work, often.
    Mr. Thornberry. And wouldn't you agree, in power, people on 
the front lines--understanding they may make a mistake here or 
there, but you are going to have to tolerate that; we are going 
to have to tolerate it too, by the way--in the interest of 
speed.
    Let me ask one other question. Then I am going to have to 
go. I may have some others for the record, if you don't mind.
    How are the things you all do plugged in to the NCTC 
because as I understand it, the overall planning in the 
government for the war against terror is by the NCTC. Defense 
Science Board and everybody else says you can't have strategic 
communications as a plug-in; you know, it has got to be an 
integral part from the beginning. And so the work you do, to be 
effective, has to be integrally plugged in and integrated to 
the strategic planning that the NCTC does.
    Are you integrated yet?
    Mr. MacInnes. We are very integrated. We have a full-time 
NCTC person sitting in the office. He is one of the 12 people, 
and he does 4 days with us, one back at NCTC.
    We also, when we do messaging, we run it by the NCTC 
analytical unit. In fact, we use the intel to inform how we 
think about addressing these issues.
    Mr. Thornberry. But do you have folks at NCTC to be part of 
the planning process?
    Mr. MacInnes. There are State people there, but probably 
not--I don't know if they are in the planning division.
    Mr. Thornberry. Okay.
    I appreciate the work you all do, and I appreciate your 
being here. I am sorry we are cut short a little bit. We are 
going to have a whole bunch of votes. We may have some 
questions for the record, if that is all right.
    Thank you again, all of you, for your testimony and for 
your work.
    And with that, the hearing is adjourned.
    [Whereupon, at 11:23 a.m., the subcommittee was adjourned.]
=======================================================================




                            A P P E N D I X

                           November 15, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 15, 2007

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           November 15, 2007

=======================================================================


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
